                                    CLOSEOUT MEMORANDUM




               We participated in an investigation involving Yale University. The substance
        of this case is described in the attached DOJ press releasel, and the civil2 and
        administrative agreements3 are also attached.

              Yale paid $7.6 million to settle this case, of which the proportional amount
        allocable to Yale's awards from NSF was $438,821.14. This case is closed.




NSF OIG Form 2 (11/02)
             .   United States ~ t t o r n e ~Office
                                              's
                 District of Connecticut -
                 Press Release
                                                          1

                    I


December YALE UNIVERSITY TO PAY $7.6 MILLION TO
23,2008  RESOLVE FALSE CLAIMS ACT AND COMMON LAW
         ALLEGATIONS

               Nora,R. Dannehi, Acting United ~ t a i e sAttorney for the
               District of Connecticut, today announced that YALE
                                                      a
               UNIVERSITY has enterkd into civil settlefient
         '
               agreement with ihe Government in which it'will pay $7.6
               millioh to resolve allegations that it violatedqthe~ a l s e
              'Claims Act and the common law in the management of
               federally-funded research grants awarded to the
               university between January '2000 and December 2006.
         .                              . ,

               ~ c t i n gU.S. Attorney Dannehy explained that the grant
               awards were made by approximately 30 federal agencies
             - and entities, including the Department of Health and
               Human Services, the National Science Foundation; the
               Department of Energy, the Department' of Defense, and
              -the ~ationalAeronautics and Space Administration.
               These five-agencies provided approximately 94 percent
               of the almost $3 billion in federal grant funding to YALE
               UNIVERSITY during the time period at issue.
                            a   -   -         *   .
                        I




              The i&estigation focused .on allegations involving two
              types 'of mischarges to federal grants. Both types of
              rnischarges arose as violations of the basic principle that
              recipients of federal grants are allowed to charge to each
              grant account only "allocable".costs, which are costs that
              relate to the specific objectives of that grant project. The
              first allegation involved cost transfers and the requirement
              that cokts transferred to a federal grant account must be
     =   .    a~~ocad~e  to that particular grant account. -The settlement
Press Releases                                   http://www.usdoj.gov/usao/ct/Press2008/20081223-1.html
                                                                                                          '1




                 resolves allegations that some YALE UNIVERSITY
                 researchers at times improperly transferred charges to a
                 federal grant account to which those charges were not
                 allocable. Researchers allegedly were motivated to carry
                 out these wrongful transfers when the federal grant was
                 near its expiration date and they needed to spend down
                 the remaining grant funds. Federal regulations require
                 that unspent grant funds be returned to the Government.

                 The second allegation involved salary charges and the
                 requirement that charges to federal grant accounts for
                 researcher time and effort must reflect actual time and
                 effort spent on a particular grant. The Government
                 alleges that some researchers at YALE UNIVERSITY at
                 times submitted time and effort reports, for summer
                 salary paid from federal grants, that wrongfully charged
                 100 percent of their summer effort to federal grants when,
                 in fact, the researchers expended significant effort on
                 unrelated work. Researchers allegedly were motivated to
                 carry out these wrongful salary charges by the fact that
                 they are not paid their academic-year salary by YALE
                 UNIVERSITY during the summer. The only salary
                 received by these researchers during the summer was
                 the result of the effort they charged to federal grants.
                 Absent the alleged grant mischarges, the researchers
                 would not have been paid.

                 The $7.6 million payment comprises two components:
                 $3.8 million in actual damages for the false claims, and
                 $3.8 million assessed as penalties for the false claims.
                 The False Claims Act provides for up to treble damages
                 and penalties of $5,500 to $1 1,000 per false claim
                 submitted to the Government.

                 "This settlement sends a clear message that the
                 regulations applicable to federally-funded research grants
                 must be strictly adhered to," stated Acting United States
Press Releases                                      http://www.usdoj.govlusaolct/Press2008/20081223-1. html


                                                                            ".
                   Attorney Dannehy.
                                                              -   9
                                                                        I



                   Acting U.S. Attorney Dannehy also noted that YALE
                   UNlVERSll-Y cooperated fully in the Government's
                   investigation, which began with the service of multiple
                   investigative subpoenas on the university in 2006.
                   Throughout the investigative period, YALE UNIVERSITY
                   also rnade extensive efforts to significantly improve its
                   management of federal grants.

                   As a result of the settlement, there will be no lawsuit filed
                 , against YALE UNIVERSITY regarding the more than
                   6;000 grants covered by the settlement agreement. In
                   entering into the sett~kment,YALE UNIVERSITY did not
                   admit liability and the agreement indicates that the parties
                   settled this matter to avoid the delay, uncertainty, and
                   expense of litigation.

                   The settlement resulted after a lengthy investigation
                   conducted by the Department of Health and Human
                   Services, Office of the lnspector General; the National
                   Science Foundation, Office of the lnspector General; the
                   Department of Energy, Office of the lnspector General;
                   the Defense Crirninal Investigative Service; the
                   Department of the Army, Criminal l nvestigation
                   Command; the Defense Contract Audit Agency; the
                   National Aeronautics and Space Administration, Office of
                   the lnspector General; and the Federal Bureau of
                   Investigation.

                   The matter was handled within the U.S. Attorney's Office
                   by Assistant U.S. Attorneys William A. Collier, John B.
                   Hughes and David J. Sheldon, and Auditor Susan N.
                   Spiegel.


        CONTACT: U.S. ATTORNEY'S OFFICE
Press Releases



                      Tom cars or^
                      (203) 821-3722
                      thomas .carson@usdoj.gov




             Home Privacy PolicyoLegal Policies and Disclaimers USA0
                  l                                         l


              Hornepage ~epartmentof Justice USA.gov Project Safe
                         l                       l    l


                 Neighborhoods PSN Grants www.regulations.gov
                                l            l
                                                                                           *
                                     IN RE: YALE UNIVERSITY

                U.S. ATTORNEY'S OFFICE, DISTRICT OF CONNECTICUT

                                          # 2005V00840

                                SETTLEMENT ACREEMENT'I'



        This Settlement Agreement ("Agreement") is made and entered into by and among the

following (hereinafter "the Parties"), through their authorized representatives: United States of

America, acting through the United States Department of Justice and on behalf of the agencies

listed below in Exhibit 1, and Yale University, bn behalf of its current or foriner subsidiaries and

affiliates ("Yale").

                                              11. Preamble

        As a preamble to this Agreement, the Parties agree to the following:.

        1.      Yale is a university located in New Haven, Connecticut. For many years, it has

received grants, or entered into contracts or other forms of agreements, with various agencies or

instrumentalities of the United States Government.

        2. Federal Awards


        "Federal Awards" means all grants, research or other procurement contracts, cooperative

agreements, and other forms of agreements or awards made to Yale by any depalment, agency

or instrumentality of the Federal Government, or by any other recipient of such

a Federal agreement or award, under such an agreement or award.
          z
                                 d           . *              . .

        3. Covered Period
       The "Covered Period" shall be the period fiom January 1,2000 through December 3 1,




       4. Covered Federal Awards


       The "Covered Federal A.wardsY'shall be all Federal Awards in effect at any time during

thc Covered Period.


       5. Covered Conduct


       The "Covered Conduct" shall consist of the rollowing alleged conduct of Yale with

respect to Covered Federal Awards:


              a.      Allegations that, during the Covered Period, Yale personnel caused

       improper, unallowable, unallocable, untimely, or undocumented transfers of labor and

       non-labor direct costs, and associated indirect costs ("unallowable cost transfers") to be

       made to Federal Awards, in violation of Federal cost transfer and cost allocation rules

       and procedures, and in violation of Yale's own cost transfer and cost allocation rules and

       procedures.


              b.       Allegations that, during the Covered Period, Yale failed to establish and

       maintain anmadequate system to monitor, control, and prevent unallowable cost transfers

       to Federal Awards.


              c.      Allegations that, during the Covered Period, Yale personnel submitted or

       caused to be submitted inaccurate time or effort reports, or failed to submit valid time or
 effort reports, in support of Yale's allocations of compensation to ~ e d e i aAwards,
                                                                                l

 including but not limited to costs associated with faculty suminkr compensatidn, in
                                                                                            *
"iolation of appIicabIe Federal time and effort repotting r~lldsand procedures and in

 violation of Yale's own time and effort reporting rules and procedures.


        d.      Allegations that, during the Covered Period, Yale failed to take adequate

 steps to ensure that the completion and submission of time and bffort reports by Yale

 einployees in connection with Federal Awards were carried oui in accordance with

 agplicabIe Federal ruIes and procedures a11d in accordan'ce with Yale's own time and

 effort reporting policy and procedures.   .
                                                          ,   >




        e.      AIlegatioils that, during the Covered Period, Yale's time and effort
                                                  I i



 reporting system did not comply f~lllywith the Federal requirements that time and effort

 reports (1) allocate salary, wage and fringe benei'it costs tlxough the use of after-the-fact

 activity reports; (2) certify actual effort rather than payroll distribution; (3) be completed

 by individuals with suitable means of verification that charges to Federal Awards were

 reasonable in relation to the work performed; (4) allow for cbnfinnation of activity to

 individual sponsored agreements; (5) cover one hundred percent of an individual's

 university effort, including all effort on Federal ~wards,-whetheror not supported by

 Federal cost reirnbursekent, including voluntary uncokmitted cost sharing, (6)

 encompass both sponsored and non-sponsored activity on an integrated basis; and (7) be

 part of a system that unddrgoes independent internal evaluations.
               f.     The Covered Charges are all charges for cost transfers and effort reporting

       described above in paragraphs a. through e. These charges exclude all charges that are

       not among the described charges for cost transfers and effort reporting; thus, for exanlple,

       the Covered Charges do not include charges for Covered Federal Awards that did not

       occur during the Covered Period.


               g.     Allegations that by reason of the foregoing, Yale knowingIy submitted

       claims and collected rei~nbursementsunder Federal Awards for Covered Charges in

       amounts that were in excess of the amounts that Yale was entitled to claim under such

       Federal Awards; made statements with respect to its incurred costs for Covered Charges

       under Federal Awards that were inaccurate and misleading; and failed to comply with

       Federal rules and procedures applicable to accounting for, claiming, and collecting

       reimbursement for Covered Charges.


       6.      The United States coiltends that it has certain civil and administrative

claims, as specified in Paragraph 111.3 below against Yale under the False Claims Act, 3 1 U.S.C.

$9 3729-33, and other Federal statutes andlor common law doctrines for engaging in the Covered
Conduct.

       7.      Yale denies that it has any liability under the False Claims Act, 3 1 U.S.C. $3

3729-3733, or other Federal statutes andfor common law doctrines with regard to the Covered

Conduct.

       8.      This Agreement is neither an admission of liability by Yale nor a concession by

the United States that its claims are not well founded.
       9.       In order to avoid the delay, alcertainty, inconvenience, m1cI expense of protracted

litigation of these claims, however, the Parties reach a full and final settlement pursuant to the

Terms and Conditions set forth below.

                                    111. Terms and Conditions

        1.      Yale agrees to pay to the united stkites $7,600,000 ("the Settlement ~&ount").

Yale agrees to make payment of the Skttlement Amount by electronic funds transfer pursuant to

written instructions to be provided by the Uriited States Attorney's Office, District of

Connecticut. YaIe agrees to make this electronic funds transfer by no Iater than ten business

days after the later of (a) the Effective Date of this Agreement or (b) receipt of the written

instructions.

       2:       In consideration of the oblig'ations of Yale in this Agreement and conditioned

upon Yale's full payment of the Settlement Amount, NII-I agrees to release and refrain from

instituting, directing, or maintaining any fiscal disallowance action to administratively recover

funds paid to Yale based on the Covered Conduct. Nothing in this Agreement precludes NJH

from imposing corrective actions or special award conditions on a grant, pursuant to 42 C.F.R.       5
52.9 or 45 C.F.R. § 74.14, or imposing additional or special award terms. Nothing in this

Agreement precludes NIH froin taking enforcement actions pursuant to 45 C.F.R. tj 74.62,

including, but not limited to, limiting h e r e grant awards. Nothing in this Agreement precludes

NIH from taking action against entities or persons, or for conduct and practices, for which claims

have been reserved in Paragraph 4 below.

       3.       Subject to the exceptions in Paragraph 4 (concerning excluded claims) below, in

consideration of the obligations of Yale in this Agreement, and conditioned upon Yale's
payment in full of the Settlement Amount, the United Statcs (on behalf of itself, its officers,

agents, agencies, and depal-tments) agrees to release Yale, together with its current or former

officers, directors, faculty, einployees and agents and the successors and assigns of any of them,

froin any civil or administrative monetary claiin or other claiin the United States has or may have

for the Covered Conduct under the False Claiins Act, 3 1 U.S.C.        3s 3729-3733, the Program
Fraud Civil Remedies Act, 3 1 U.S.C.   $9 3801-3812; the Civil Monetary Penalties Law, 42
U.S.C. tj 1320a-7a; or the common law or equitable theories of payment by mistake,

disgorgement, unjust enrichment, restitution, recoupinent, conversion, constructive trust,

negligence, breach of contract and fraud.

       4.      Notwithstanding any term of this Agreement, specifically reserved and excluded

from the scope and terins of this Agreement as to any entity or person (including Yale) are the

following ciaims of the United States: .                      -,   d   .



               (a)     Any civil, criininal or administrative liability under Title 26, U.S. Code

(Internal Revenue Code);


               (b)     Any criminal liability;


               (c)     Except as explicitly stated in this Agreement, any administrative liability,

including mandatory or non-mandatory exclusion from Federal grant or contrict programs;

               (d)     Any liability to the United States (or its agencies) for m y conduct other
                                                                                  r
than the Covered Conduct;

               (e) Ally liability based upon such obligations as are created by
this Agreenlent;

               ( f ) Any liability for express or implied warranty claims or other claims for

defective or deficient products or services, including quality of goods and services;

               (g) Any liability for failure to deliver goods or services due;

               (h) Any Iiability for personal injury or property damage or for other consequential

damages arising from the covered Conduct; or

               (i) Any civil or administrative liability of individuals (including current or former

directors, officers, employees, agents, or shareholders of Yale) who receive written notification

that they are the target of a criminal investigation (as defined in the United States Attorney's

Manual); are indicted, charged, or convicted; or who entcr into a plea agreenzent related to Qe

Covered Conduct.

       5.      Yale waives and shall not assert any defenses Yale inay have to any criminal

prosecution or administrative action' relating to the Covered Conduct that may be defenses based

in whole or in part on a contention that, undir the Double Jeopardy Clause in the Fifth
                                                                                         i

Amendment of the Constitution, or under the Excessive Fines Clause in the Eighth Amendment

of the Constitution, this Agreement bars a remedy sought in such criminal prosecution or

administrative action. Nothing in this paragraph or any other provision of this Agreement

constitutes an agreement by tlie United States concerning the charactkrizatibn of the Settlement

Amount for purposes of the Internal Revenue laws, Title 26 of the United States Code.

       6.      Yale fully and finall; releases the United States, its agencies, employees,

servants, and agents from any claims (including attorney's fees, costs, and expenses of every

kind and however denominated) that Yale has Gkrted, could have assertkd, or may assert in the          -
future against the United States, its agencies, employees, servants, and agents, related to the

Covered Conduct and the United States' investigatioil and prosecution thereof.

         7.    Yale agrees to the following:

               (a) Unallowable Costs Defined: That all costs (as defined in the Federal

Acquisition Regulation, 48 C.F.R. Ij 3 1.205-47) incurred by or on Behalf of Yale, and its present

or former officers, directors, employees, shareholders and agents in connection with:

                      3 .
                            (1) the matters covered by this Agreement,
     I



                            (2) the United States' audit(s) and civil and criminal investigations(s) of

the matters covered by this Agreement,

                        (3) Yale's investigation, defense, and corrective actions

undertaken in response to the United States' audit(s) and civil or criminal investigation(s) in

connection with the matters covered by this Agreement (including attorney's fees),

                            (4) the negotiation and performance of this Agreement, and

                        (5) the payment Yale .makes to the United States

pursuant to this Agreement, including any costs and attorney's fees,

are "Unallowable Costs" for government contracting purposes (hereinafter referred to as

"Unallowable Costs."

                (b) Future Treatment of Unallowable Costs: Unallowable Costs will be

separately determined and accounted for by Yale, and Yale shall not charge such Unallowable

Costs directly or indirectly to any contracts with or grants from the United States.

               (c) Treatment of Unallowable Costs Previously Submitted for Payment: Yale

further agrees that within 90 days of the Effective Date of this Agreement it shall identify any
UnallowabIe Costs (as defined in tl~isparagraph) included in paymeilts previously sought by
                                                                                                                                                                                   '
Yale from the United States". Yale agrees that the Unitkd States, at ~ m i n ~ m u m
                                                                                   shall
                                                                                     , be entitlgd                                                               '



to recoup from Yale any overpayment plus applicable interest and penalties as a result of the

inclusion of such Unallowable Costs in any such pa);mentT5Ariy paymelits due'shall be paid to'

the United States pursuant to the direction of the ~e~artke'Gt-of
                                                               Jlistice, and/or the affected.                                                               '    -.
agencies. The United'stites reserves its rights to disagree with an? calculations submitted by                                                              '


                                                                                                                                                                 '
                                     included inpayments previously sought by ~$le;.&the
Yale regarding any Unallowable ~ o s &

effect of any such Unallowable Costs on the amount of such payments.

                 (d) Nothing in this ~ ~ r & r n e shall
                                                   n t constitute a waiver 'of the rights of the Unitcd

States to audit, examine or se-'&xainine~ a l t ' books
                                                  s     and records to determine that 60 - .                                                            T            ."

UnalIowable costs have been claiilled in accordance'with the provisions of this Paragraph.'                                                             '


      '8.    -   This Agreernent'is interidkd to be for the benefit of thel~'arties%~~ly:
                                                                                     The Parties                                                                '"



do not release any cIaims againit any other person or entity.                   '            a   '?
                                                                                                                          .       ,
                                                                                                                                  ,,              I                            ..-
                                                                                                                                                                               v




       9.        Except as expressly provided to the contra~yin this Agreement, each                                                         to this,                      ,



Agreement shall beacits own legal and other costs incurred in connection with this matter,                                                                  "
including the preparation and performasice of this Agreement.
                                                                                             *    %.


                                                                                                      .           .           c        -I:        a ,                  I   .
       1 0 ,. Yale represents 'Ehat this Agreement is freely and voluntarily entered into without

any degree of duress or compulsion whatboever:
                                                                                                  .       -                                   Y             J    h




       11.       This Agreement is governed by the laws of the United States. The Parties agree

that the exclusive jurisdiction and venue for any dispute arising between and among ihe Parties

under this Agreement shall be the United States District Court for the District of Connecticut:.

                               ."   *   '    r$   8%   -
                                                           I
                                                               5
                                                                   '
                                                                       '   '.       .   '1   "                ~       *                 .a.
                                                                                                                                                                     " 8       .*,
        12.       For purposes of construction, this Agreeinent shall bc deemed to have been

drafted by all Parties to this Agreement and sI1aIl not, therefore, be construed against any Party

for that reason in any subsequent dispute.

        13.       Yale warrants that it has reviewed its financial situation and that it currently is

solvent within the meaning of 1 1 U.S.C 547(b)(3) and 548(a)(l)(B)(ii)(I), and shall remain

solvent following payment to the United States of the Settlement Amount. Further, the Parties

warrant that, in evaluating whether to execute this Agreement, they (a) have intended that the

mutual promises, covenants, and obIigations set forth constitute a contemporaneous exchange for

new value given to Yale, within the meaning of 11 U.S.C. 547(c)(1), and (b) conclude that these

mutual promises, covenants, and obligations do, in fact, constitute such a contemporaneous

exchange. Further, the Parties warrant that the mutual promises, covenants, and obligations set
                                                                                             ,
forth herein are intended to and do, in fact, represent a reasonably equivalent exchange of value

that is not intended to hinder, delay, or defraud any entity to which Yale was or became indebted

to on or after the date of the transfer, within the meaning of 11 U.S.C. 548(a)(l).

       14.        This Agreeinent represents the complete agreement between the Parties. This

Agreement may not be amended except by written conseilt of the Parties.

        15.       The undersigned iildividuals signing this Agreement on behaIf of Yale represent

and warrant that they are authorized by Yale to execute this Agreement. The undersigned United

States signatories represent that they are signing this Agreement in their official capacities and

that they are authorized to execute this Agreeinent.

       16.    '    The Agreement may be executed in counterparts, each of which shall constitute

an original and all of which shaIl constitute one and the same Agreement,,
       17.     This Agreement is binding on Yale's successors, transferees, heirs, and assigns..

       18.     All Parties consent to the llnited States' disclosure of this Agreement, and

infonnation about this Agreement, to the pilblic.           t   s

                                                                            '       .
       19.    This Agreement is effective on the date of signature of-fhelast signatory to this
                                                                                            l
                                                                                            i



Agreement ("Effective Date of this Agreement"). Facsimiles of signatures 'shall constitute

acceptable, binding signatures for purposes of this Agreement.      .

       IN WITNESS WHEREOF, the Parties have executed this Agreement.                    -
                                                                        .       I       '       .
FOR THE UNITED STATES OF AMERICA                            *   I




               l l j j          I        .       .
      NORA R.DANNEHY
      ACTING UNITED STATES ATTORNEY
      DISTRICT OF CONNECTICUT

By:      $6
          - A . h.                           '       Dated: I Z \ ~ P / ; %
                                                                    I
      WILLIAM A. COLLIER.           1

      ASSISTANT U.S. ATTORNEY


By:   y.
      GREGORY E. DEMSKE
      ASSISTANT INSPECTOR GENERAL
           FOR LEGAL AFFAIRS
      OFFICE OF COUNSEL TO THE INSPECTOR
           GENERAL
      OFFICE OF INSPECTOR GENERAL
      U.S. DEP'T OF HEALTH & HUMAN SERVICES
FOR YALE UNTWRSITY             - "       #:,   1    .,       , t r   '   (   ^   I




By:     -@W~&A,-
      DOROTHY K. ~OBINSON,ESQ.
      VICE PRESIDENT & GENERAL COUNSEL
      YALE UNIVERSITY


           - in their capacity as-
      COUNSEL FOR YALE UNIVERSITY:
                               .     <
                                                   . I   +




                                                                         Dated:      i   I

      HOGAN & HARTSON LLP                           *                                        i

      WASHINGTON, DC
                                        IN RE: YALE UNIVERSITY


                           U.S. AlTORNEY'S OFFICE, DISTRICT OF CONNECTICUT '

                                                                                                           \
                                                                                                       i
                                                                   -
                                                                       I   .   .


                                             # 2005V00840

                                                           .   L



                                   Exhibit 1t o Settlement Agreement



    Health & Human Services                            National Science Foundation
    Department of Energy                               Department of Defense
    Deaartment of Education                            D e ~ a r t m e nof
                                                                        t Veterans Affairs
I   National Aeronautics & Space Administration    1   Department o f Agriculture          .
    National Endowment for the Humanities              National Endowment for the Arts
    Department o f Justice                             Housing & Urban Development
    Department of Commerce                             Environmental Protection Agency
    Department of Interior                             Department o f Homeland Security
    Agency for International Development           (   Central Intelligence Agency
    Department of State                                Department of Transportation
    Smithsonian Institution                            U.S. Information Agency
    National Archives & Records Administration         U.S. lnstltute of Peace
    Corporation for National & Community Service       Social Security Administration
    U.S. Holocaust Memorial Council                    National Oceanic & Atmospheric Administration
    Institute of Museum & Library Services             Inter-American Foundation
    National Security Agency
                     '     ADMINISTRATIVE AGREEMENT
                                                                                                    I


I. Parties                                                 '   ,,


        This Settlement Agrekment ("~greemknt")is made and entered into by a d
among the following (hereinafter "the Parties"), through their authorized repre$entatives:

the United States Department of Health and Human Services ("~epartment"), and its

respective agencies, and Yale University, on behalf of its'current or former subsidiaries
                                                               V
                                                                                           ..
and affiliates ("Yale").                           <   .



                                                                    .   d

II. Preamble and Definitions
        As a preamble to this Agreement, the Parties agree to the following:

        1.      Yale is a university located in New Haven, Connecticut. ~ o r - m a nyears,
                                                                                      ~

it has received grants, or entered into contracts or other forms of agreements, with various

agencies or instrumentalities of the United States Government, including the Department

of Health and Human Services.

        2. Federal Awards. "Federal Awards" means d l grants, research or other

procurement contracts, cooperative agreements, and other f o d of agreements or awards
                                                                                   ,            '
made to Yale by any department, agency or instrumentality of the ~ederalGovernment,

or by any other recipient of such a Federal agreement or award, under such an agreement

or award.

       3. Covered Period. The "Covered Period" shall be the period h m January 1,

2000 through December 3 1,2006.          - .                                 -i=




       4. Covered Federal Awards. The "Covered Federal Awards" shall be all Federal
                                                                               ,       .                ,,
Awards in effect at any time during the Co"ered Period.
       5. Covered Conduct. The "Covered Conduct" shall consist of the following

alleged conduct of Yale with respect to Covered Federal Awards:

              a.      Allegations that, during the Covered Period, Yale personnel caused

       improper, unallowable, unallocable, untimely, or undocumented transfers of labor

       and non-labor direct costs, and associated indirect costs ("unallowable cost

       transfers") to be made to Federal Awards, in violation of Federal cost transfer and

       cost allocation rules and procedures, and in violation of Yale's own cost transfer

       and cost allocation rules and procedures.

              b.       Allegations that, during the Covered Period, Yale failed to

       establish and maintain an adequate system to monitor, control, and prevent

       unallowable cost transfers to Federal Awards.

              c.      Allegations that, during the Covered Period, Yale personnel

       submitted or caused to be submitted inaccurate time or effort reports, or failed to

       submit valid time or effort reports, in support of Yale's allocations of

       compensation to Federal Awards, including but not limited to costs associated

       with faculty summer compensation, in violation of applicable Federal time and

       effort reporting rules and procedures and in violation of Yale's own time and

      effort reporting rules and procedures.

              d.      Allegations that, during the Covered Period, Yale failed to take

      adequate steps to ensure that the completion and submission of time and effort

      reports by Yale employees in connection with Federal Awards were carried out in

      accordance with applicable Federal rules and procedures and in accordance with

      Yale's own time and effort reporting policy and procedures.
        e.      Allegations that, during the Covered Period, Yale's time and effort

reporting system did not comply fully with the Federal requirements that time and

effort reports (1) allocate salary, wage and fringe benefit costs through the use of

after-the-fact activity reports; (2) certify actual effort rather than payroll

distribution; (3) be completed by individuals with suitable means of verification

that charges to Federal Awards were reasonable in relation to the work performed,

(4) allow for confirmation of activity to individual sponsored agreements; (5)

cover one hundred percent of an individual's university effort, including all effort

on Federal Awards, whether or not supported by Federal cost reimbursement,

including voluntary uncommitted cost sharing; (6) encompass both sponsored and

non-sponsored activity on an integrated basis; and (7) be part of a system that

undergoes independent internal evaluations.

       f.      The Covered Charges are all charges for cost transfers and effort

reporting described above in paragraphs a through e. These charges exclude all

charges that are not among the described charges for cost transfers and effort

reporting; thus, for example, the Covered Charges do not include charges for

Covered Federal Awards that did not occur during the Covered Period.

       g.      Allegations that by reason of the foregoing, Yale knowingly

submitted claims and collected reimbursementsunder Federal Awards for             -

Covered Charges in amounts that were in excess of the d o u n t s that Yale was

entitled to claim under such Federal Awards; made statements with respect to its

incurred costs for Covered Charges under Federal Awards that were inaccurate

and miheading; and failed to comply with Federal rules and procedures
        applicable to accounting for, claiming, and collecting reimbursement for Covered           1
                                                                                                   I

        Charges.

               h.       Corrective Actions. The "Corrective Actions" referred to in this
                                                                                                   I
        Agreement include but are specifically not limited to those "corrective actions".

        referred to in Section III.7(a)(3) of the Settlement ~ ~ r e e r n eresolving
                                                                            nt        In re Yale

       University, U.S. Attorney's Ofice, District of Connecticut #2005V00840.                     i
ILI. Terms and Conditions
       NOW,THEREFORE,in consideration of the mutual promises, covenants, and
obligations that follow, and for good and valuable consideration as stated herein, the

Parties agree as follows:

        1. Yale has taken certain corrective actions with respect to the covered conduct,

and agrees to take any additional corrective actions as may be directed by the Department

and its affected agencies under their authority to award or administer Yale's contracts,

grants and cooperative agreements for research and other activities, including but not

limited to requested audits and reporting of the same, and to otherwise work in good faith

with the Department to resolve any and all outstanding issues regarding, or related to, the

covered conduct described herein.       .

       2. In consideration of the obligations of Yale in this Agreement and conditioned

upon Yale's fulfillment of such obligations, the Debarment and Suspension Official of the

Department, hereby declares that the Department will not suspend or debar Yale fiom
any Department grant, contract or cooperative agreement based on the Covered Conduct

described herein. In reaching this determination, the HHS debarring official has

considered (1) the actual or potential harm caused by misconduct; (2)whether Yale has a
history of misconduct; (3) whether Yale has been excluded or disqualified by other

federal, state, or local agencies based on similar misconduct; (4) whether Yale has

accepted responsibility for the wrongdoing;'(5) whether Yale cooperated fully in the

investigation into the misconduct; (6) the kinds of positions held by Yale employees that

engaged in misconduct; (7) whether Yale brought the misconduct to the Government's

attention; and (8) an explanation of corrective actions already undertaken by Yale.

       IN WITNESS WHEREOF, the Parties have executed this Agreement.



FOR THE U.S. D E P A R T T T OF HEALTH AND HUMAN SERVICES




       DEPUTY ASSISTANT SECRETARY
        FOR ACQUISITION MANAGEMENT AND POLICY
       U.S.DEP'T OF HEALTH & HUMAN SERVICES
FOR YALE UNIVERSITY


By:                                                         Dated:   12[alo$
       DOROTHY K.'ROBMSON, ESQ.
       VICE PRESIDENT & GENERAL COUNSEL
       YALE UNIVERSITY


              - in their capacity as-




       MCHAEL J. VERNICK, E&. -
       HOGAN & HARTSON LLP
       WASHINGTON, DC
